                       Compensation System Audit

                                February 2005

                     Reference Number: 2005-1C-030




  This report has cleared the Treasury Inspector General for Tax Administration
disclosure review process and information determined to be restricted from public
                 release has been redacted from this document.
                                    DEPARTMENT OF THE TREASURY
                                        WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                         February 16, 2005


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE



       FROM:                 Daniel R. Devlin
                             Assistant Inspector General for Audit (Headquarters Operations
                             and Exempt Organizations Programs)

       SUBJECT:              Compensation System Audit
                             (Audit #20051C0203)


       The Defense Contract Audit Agency (DCAA) examined the contractor’s compensation
       system as of April 30, 2003, to assure that the contractor’s system of compensation
       controls is adequate to provide billed costs that are reasonable, compliant with
       applicable laws and regulations, and subject to applicable financial control systems.
       The examination was also used to evaluate the contractor’s compliance with the
       system’s internal control requirements.

       The DCAA stated that the compensation system and related internal control policies
       and procedures of the contractor are adequate. The audit disclosed no employee
       benefit costs considered unreasonable under the Federal Government regulation. The
       DCAA examined only the compensation system. Accordingly, the DCAA expresses no
       opinion on the contractor’s system of internal controls taken as a whole.

       This DCAA report was issued in July 2003; however, the Treasury Inspector General for
       Tax Administration (TIGTA) did not receive the report until January 2005. The Internal
       Revenue Service (IRS) previously received a copy of the report directly from the DCAA.
       We are transmitting this report to you to enable the IRS to track any financial
       accomplishments derived from negotiations with the contractor based on the results of
       this DCAA report.

       The information in this report should not be used for purposes other than those intended
       without prior consultation with the TIGTA regarding their applicability.
                                          2




If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
Director at (202) 927-7077.


Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
